jMmteft J^tates (Enurt of appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

Argued December 5, 2019

Decided January 31, 2020

No. 18-3019
United States of America,
Appellee
v.
Eliu Elixander Lorenzana-Cordon,
Appellant

Consolidated with 18-3033

Appeals from the United States District Court
for the District of Columbia
(No. l:03-cr-00331-CKK-13)
(No. l:03-cr-00331-CKK-14)

Robert E. Coppell argued the cause and filed the briefs for
appellants.
Michael A. Rotker, Attorney, U.S . Department of Justice,
argued the cause for appellee. With him on the brief was Arthur
G. Wyatt, Chief, Narcotic and Dangerous Drug Section. Ross

2
B. Goldman and Charles Miracle, Attorneys, and Elizabeth
Trosman, Assistant U.S. Attorney, entered appearances.
Before: Tatel, Millett, and Pillard, Circuit Judges.
Opinion for the Court filed by Circuit Judge Tatel.
Tatel, Circuit Judge: Following a three-week trial, a jury
convicted Eliu Lorenzana-Cordon and Waldemar LorenzanaCordon—brothers and Guatemalan nationals—of conspiring to
traffic wholesale quantities of cocaine into the United States.
Now challenging their convictions, the brothers argue that the
government’s trial evidence materially diverged from the
indictment and that the district court erred by refusing to give
a multiple conspiracies jury instruction. Reviewing the record,
we find no grounds for reversal: no material divergence
occurred and, even if a multiple conspiracies instruction was in
order, its omission inflicted no prejudice.
I.
In 1995, Otto Herrera—a Guatemalan narcotics trafficker
who worked for the Sinaloa Cartel, a Mexican drug
syndicate—approached members of the Lorenzana-Cordon
family with a proposal to turn the family’s properties in
Guatemala into makeshift airfields and warehouses where drug
organizations “could store and safeguard cocaine shipments
... until the Mexican drug traffickers could come pick them
up.” Trial Tr. 27 (Mar. 1, 2016, 2:00 PM). In exchange,
traffickers would pay the family a fee for each load held at the
properties. The family, including brothers Eliu and Waldemar,
met with Herrera and approved the deal. Colombian suppliers
then began transporting thousands of kilograms of cocaine to a
farm owned by the Lorenzana-Cordon family for delivery to
Mexican purchasers. Although aware of the arrangement, the
brothers were initially uninvolved in the trafficking activities.

3
That changed in 1998, when Herrera moved the operation
to a different farm owned by the family, at which point the
brothers took on more active roles. Following the move, the
brothers facilitated several cocaine transactions, with Eliu
offloading shipments and Waldemar serving as a lookout—the
cocaine ultimately destined for the United States by way of
Mexico and the Sinaloa Cartel. Around this time, the brothers,
through Herrera, also struck a deal with Colombian suppliers
to purchase a portion of the cocaine being stored on the
family’s properties in order to resell it to their own customers.
The arrangement proved profitable, with both Eliu and
Waldemar buying and then selling hundreds of kilograms of
cocaine.
In 2003, the family’s arrangement with Herrera abruptly
ended when U.S. law-enforcement officials discovered the
location of Herrera’s stash house in Guatemala. Local lawenforcement officials executed a search of the house,
recovering a cache of weapons and U.S. currency. The raid
effectively ended Herrera’s trafficking activities.
Needing fresh supplies of cocaine, in 2004, the brothers
met with Marllory Chacon, a Guatemalan woman who
laundered money for Colombian cartels and who offered the
brothers the opportunity to acquire over a ton of cocaine from
Colombian suppliers. The brothers agreed to purchase the
cocaine, with Eliu fronting the money and Waldemar arranging
the logistics. Additional purchases followed, but the
arrangement ended after the brothers made late payments to the
Colombians. In 2008, Eliu and Waldemar reconnected with
Chacon, enlisting her help to launder and transfer millions of
dollars out of Guatemala.
Some years earlier, in either 2005 or 2006, the brothers
also purchased cocaine from Jose Handal, a Honduran

4

trafficker. The brothers met with David Andrade, Handal’s
intermediary, at a farm in Honduras where they loaded several
hundred kilograms of cocaine into the hidden compartment of
a cattle truck and then drove the truck across the border into
Guatemala. Several days later, the brothers returned to
Honduras to deliver several million dollars as payment.
Throughout this period, Eliu and Waldemar continued
selling wholesale quantities of cocaine to various customers.
But they typically did so separately. For example, Walter
Merida, a Guatemalan involved in trafficking cocaine and
manufacturing ephedrine, purchased thousands of kilograms of
cocaine from Eliu though he never bought from Waldemar. The
brothers even occasionally competed for sales. Sebastiana
Cotton, a Guatemalan trafficker who purchased cocaine from
both Eliu and Waldemar, testified that, at one point, Waldemar
offered to undercut Eliu’s prices.
Eventually, the brothers came to the attention of U.S. lawenforcement officials, and, in 2009, a federal grand jury issued
a sealed indictment charging Eliu and Waldemar, among
others, with one count of conspiring to “import into the United
States” and to “manufacture and distribute” for import into the
United States five kilograms or more of cocaine in violation of
21 U.S.C. §§ 952, 959, 960(b)(l)(B)(ii), and 963. Third
Superseding Indictment (Indictment), Joint Appendix (J.A.)
457-58. The Indictment further specified that the brothers
conspired “with each other, and with other co-conspirators,
both known and unknown to the Grand Jury” in “the Republic
of Colombia, El Salvador, Guatemala, Mexico, and
elsewhere.” Id. Guatemala extradited the brothers to the United
States and, following a trial at which they were the sole co­
defendants, a jury convicted both Eliu and Waldemar on the
conspiracy count.

5
The brothers filed a host of post-trial motions before the
district court, seeking various forms of relief including new
trials and the unsealing of the Indictment. The brothers also
filed petitions for relief with this court, seeking to unseal
various trial and grand jury materials pending appeal. The
district court and a motions panel of this court denied the
brothers’ requests. The district court sentenced both Eliu and
Waldemar to fife imprisonment, and this consolidated appeal
followed.
II.
Despite the flurry of post-trial motions, the brothers
advance only two arguments on appeal: that the evidence
presented at trial materially diverged from the charges
contained in the Indictment and that the district court erred by
refusing to give a multiple conspiracies instruction to the jury.
We address each in turn.
A.
Our court recognizes two types of impermissible
divergences between indictment and proof: variances and
amendments. We explained the difference between the two in
Gaither v. United States, 413 F,2d 1061 (D,C. Cir. 1969):
An amendment of the indictment occurs when the
charging terms of the indictment are altered, either
literally or in effect, by prosecutor or court after the
grand jury has last passed upon them. A variance
occurs when the charging terms of the indictment are
left unaltered, but the evidence offered at trial proves
facts materially different from those alleged in the
indictment.

6
Id. at 1071 (internal citations omitted): Whereas “[a]n
amendment is thought to be bad because it deprives the
defendant of his right to be tried upon the charge in the
indictment as found by the grand jury,” “[a] variance is thought
to be bad because it may deprive the defendant of notice of the
details of the charge against him and protection against
reprosecution” Id. at 1071-72, Amendments and variances
have their “own standards governing prejudice.” Id. at 1071.
Variances warrant reversal only when “the error had a
‘substantial and injurious effect or influence in determining the
jury’s verdict.’” United States v. Baugham, 449 F.3d 167, 174
(D.C. Cir. 2006) (quoting Kotteakos v. United States. 328 U.S.
750, 776 (1946)). But “the concept of harmless error has not
been applied to amendments,” requiring reversal even absent a
showing ofprejudice. Gaither, 413 F.2d at 1072; see Baugham,
449 F,3d at 175 (same).
Here, the brothers contend that the government’s evidence
materially diverged from the Indictment’s charges in four
ways: (1) whereas the government presented evidence of the
brothers’ activities in Honduras, the Indictment never specified
that the conspiracy occurred there; (2) whereas the government
presented evidence of the brothers’ transactions with Cotton,
Chacon, Andrade, and Merida, the Indictment never identified
those individuals as the brothers’ co-conspirators; (3) whereas
the government presented testimony of Merida’s involvement
in manufacturing ephedrine, the Indictment never charged the
brothers with conspiring to manufacture ephedrine; and
(4) whereas the government presented testimony of Chacon’s
money laundering, the Indictment never charged the brothers
with conspiring to launder money. Complicating our review of
these claims, the brothers refer to the four purported
divergences interchangeably as variances and amendments
throughout their briefs. Fortunately, we need not determine
whether the brothers’ divergence claims are best understood as

7
amendments or variances because, however framed, the
arguments fail on the merits.
The brothers’ first two divergence claims—premised on
the government’s evidence regarding where and with whom
they conspired—fall at the first hurdle because such evidence
did not even diverge from the Indictment. Evidence that the
brothers conspired with individuals unnamed in the Indictment
(Cotton, Chacon, Andrade, and Merida) and in locations
unenumerated in the Indictment (Honduras) fell squarely
within the charged conduct—specifically, those portions of the
Indictment charging the brothers with conspiring with persons
“both known and unknown to the Grand Jury” in “the Republic
of Colombia, El Salvador, Guatemala, Mexico, and
elsewhere.” Indictment, J.A. 457-58 (emphasis added).
Because the charging terms encompassed the government’s
evidence, no divergence occurred, much less an amendment or
variance. Of course, indictments must contain sufficient detail
for defendants “to understand the charges, to prepare a defense,
and ... to be protected against retrial on the same charges,”
United States v. Mejia, 448 F.3d 436, 445 (D.C. Cir. 2006)
(internal quotation marks omitted), and the Indictment met that
threshold here, see United States v. Camara, 908 F.3d 41, 47
(4th Cir. 2018) (holding that an indictment’s use of “and
others” provided adequate notice); United States v. Roman, 728
F.2d 846, 853 (7th Cir. 1984) (concluding that an indictment’s
use of “and elsewhere” provided adequate notice).
The brothers’ remaining divergence claims—premised on
Merida’s testimony regarding ephedrine and Chacon’s
testimony regarding money laundering—fare no better.
First, such evidence did not alter “the charging terms of
the indictment . . . either literally or in effect.” Gaither, 413
F.2d at 1071. No “literal” amendment of the Indictment

8
occurred because the charging terms remained unchanged
“after the grand jury . . . last passed upon them.” Id. Nor did
the government’s evidence “effect[ively]” alter the
Indictment—commonly called a “constructive amendment.”
Id. at 1071-72. “To support a claim of constructive
amendment,” the defendant must “show that the evidence
presented at trial and the instructions given to the jury so
modified] the elements of the offense charged that the
defendant may have been convicted on a ground not alleged by
the grand jury’s indictment.” United States v. Toms, 396 F.3d
427, 436 (D.C. Cir. 2005) (internal quotation marks omitted).
Here, the district court specifically instructed the jury that
for you to find a defendant guilty of conspiracy, the
Government must prove . . . that the defendant
knowingly and willfully j oined and participated in the
conspiracy with the specific intent to commit a
criminal objective, namely, to import cocaine into the
United States, or to manufacture or distribute cocaine
for the purpose of the unlawful importation into the
United States.
Trial Tr. 21-22 (Mar. 17, 2016). Thus, regardless of Merida
and Chacon’s testimony, no constructive amendment occurred
because “[t]he instructions... required the jury to find that [the
brothers] w[ere] engaged in a conspiracy to [import cocaine or
manufacture and distribute cocaine for import], as alleged in
the indictment.” Toms, 396 F.3d at 436; cf. United States v.
Shmuckler, 792 F.3d 158, 162 n.4 (D.C. Cir. 2015) (explaining
that the government charges in the conjunctive and the court
instructs in the disjunctive).
Second, Merida and Chacon’s testimony did not materially
vary from the Indictment. As noted, only variances that have a
“substantial and injurious effect or influence in determining the

9
jury’s verdict” warrant reversal. Baugham, 449 F.3d at 174
(internal quotation marks omitted). Neither Merida nor
Chacon’s testimony so prejudiced the brothers. They suffered
no harm from Merida’s testimony because, as the government
points out, “the[] witness[] w[as] testifying about [his] own
criminal conduct” and nothing in the record connected the
brothers to Merida’s ephedrine manufacturing. Appellee’s Br.
44. And although Chacon, unlike Merida, implicated the
brothers by testifying about their money laundering, “it simply
was not the case that the jury here was substantially likely to
consider against the [brothers] evidence of [money laundering]
not charged in the indictment,” given the overwhelming
evidence of cocaine trafficking, which dwarfed Chacon’s
passing testimony regarding money laundering, and given the
district court’s instructions regarding the permissible grounds
for conviction. United States v. Straker, 800 F.3d 570, 593 n.4
(D.C. Cir. 2015) (per curiam).
B.
This leaves the brothers’ claim that the district court erred
by rejecting their request for a multiple conspiracies jury
instruction. “We review de novo th[e] failure to provide a
requested jury instruction.” United States v. Hurt, 527 F.3d
1347, 1351 (D.C. Cir. 2008). In United States v. Cross, 766
F.3d 1 (D.C. Cir. 2013), we explained that, “[a]s with any other
theory-of-defense instruction, a multiple conspiracies
instruction ‘is in order if there is sufficient evidence from
which a reasonable jury could find for the defendant on his
theory.’” Id. at 4 (quoting United Slates v. Moore, 651 F.3d 30,
78 (D.C. Cir. 2011) (per curiam)). But the refusal to give a
requested charge “requires reversal of a conviction only if the
defendant suffered prejudice as a consequence.” Id. at 5.

10
The brothers contend that, even if the government’s
evidence established the single conspiracy charged in the
Indictment, the record also contained enough evidence of
separate conspiracies to warrant a multiple conspiracies
instruction. As evidence that multiple conspiracies existed, the
brothers point out that they sold cocaine separately and sourced
cocaine from diverse suppliers. Although we have held that a
single conspiracy to distribute narcotics exists even where co­
conspirators “sometimes competed with each other for sales,”
United States v. Graham. 83 F.3d 1466,1471 (D.C. Cir. 1996),
and even where co-conspirators relied on “different suppliers,”
United States v. Maynard, 615 F .3d 544, 554 (D.C. Cir. 2010),
we have also observed that such evidence can indicate a lack
of interdependence among purported co-conspirators,
warranting a multiple conspiracies instruction, see, e.g., United
States v. Mathis, 216 F.3d 18, 24-25 (D.C. Cir. 2000) (finding
multiple conspiracies instruction warranted where evidence
showed no interdependence among competing suppliers of
narcotics).
But we need not decide whether the record here required a
multiple conspiracies instruction because even if one was in
order, reversal is unwarranted given that the brothers fail to
“show that the [error] substantially prejudiced them.” Id. at 25
(internal quotation marks omitted). In Cross, we explained that
defendants may be prejudiced by the failure to give a multiple
conspiracies instruction where: (1) “insufficient evidence
[existed] for a reasonable jury to find [the defendants] guilty of
the conspiracy charged in the indictment beyond a reasonable
doubt;” (2) a lack of notice “interfere^] with either ... the
accused[’s ability] ... to present his defense” or to “protect[]
against another prosecution for the same offense;” or
(3) evidence “spill[ed] over” from “one [defendant] to another”
or from “one conspiracy . . . [to] another.” Cross, 766 F.3d at
5-7 (internal quotation marks and citations omitted).

11
According to the brothers, “[t]he prejudice in this case was
lack of notice,” as they were unable “to present their defense
and not be surprised at trial” and unable to “protect]] in the
future from prosecution for the same offense,” Appellants’ Br.
29. This claim finds no support in the record.
First, “[w]hile [the brothers] assert that they were unable
to prepare a defense, they fail to say how this was so.” United
States v. Motris, 700 F.2d 427, 430 (1st Cir. 1983). The
Indictment apprised the brothers of the “precise offense[] of
which [they were] accused” and “‘set forth all the elements
necessary to constitute the offence,’” United States v.
Williamson, 903 F.3d 124, 130 (D.C. Cir. 2018) (quoting
Hamlingv. United States, 418 U.S. 87,117(1974)), puttingthe
brothers on notice of the need to defend against the charge at
trial. Moreover, they had “notice of the scope of the evidence
that would be used against [them] at trial,” United States v.
Sanders, 778 F.3d 1042, 1050 (D.C. Cir. 2015), because, per
order of the district court, the government provided defense
counsel with Jencks materials several days before testifying
witnesses took the stand. And the brothers “ha[ve] not provided
any reason for us to conclude that the government’s evidence”
tending to show multiple conspiracies “prejudiced [their]
ability to” cross-examine the government’s witnesses or
otherwise prepare a defense. United States v. Emor, 573 F.3d
778, 787 (D.C. Cir. 2009).
Second, the Indictment contains sufficient detail to permit
the brothers “to plead it in the future as a bar to subsequent
prosecutions,” thereby protecting them from further
prosecution for any “narrower and more limited” conspiracy
“included” within the Indictment’s broad scope. Miller, 471
U.S. at 131,135. Accordingly, the brothers suffered no noticerelated prejudice from the district court’s refusal to give the
requested instruction.

12
The brothers raise no other claims of prejudice. “Nor do
we,” reviewing the record on our own, “discern any ofthe kinds
of prejudice that we typically associate with” the omission of a
multiple conspiracies instruction. Cross, 766 F.3d at 6.
For starters, the record supports the jury’s verdict:
whatever else the government’s evidence showed, it
established that, at the very least, the brothers conspired “with
each other” to traffic over five kilograms of cocaine into the
United States, as alleged in the Indictment. Indictment, J.A.
457; cf. Miller, 471 U.S. at 131 (explaining no prejudice arises
where “a defendant is tried under an indictment that alleges a
certain fraudulent scheme but is convicted based on trial proof
that supports only a significantly narrower and more limited,
though included, fraudulent scheme”). Indeed, the brothers
raise no challenge to the jury’s verdict.
Nor did the brothers suffer any spillover prejudice—i.e.,
any risk that one brother’s conviction impermissibly rested on
evidence of the other’s guilt or that evidence from one
conspiracy “spill[edj over onto the jury’s assessment of another
conspiracy.” Cross, 766 F.3d at 7. As we have explained, no
risk of spillover prejudice exists where the government tries
only a handful of alleged co-conspirators and where the district
court gives a clarifying instruction to the jury. United States v.
Celts, 608 F.3d 818, 845-46 (D.C. Cir. 2010) (per curiam).
That was the case here: the brothers were the only defendants
tried and the district court specifically instructed the jury that
“[ejach defendant is entitled to have the issue of his guilt of the
crime for which he’s on trial determined from his own conduct
and from the evidence which applies to him, as if he were being
tried alone.” Trial Tr. 34 (Mar. 17,2016).
Thus, regardless of whether the district court should have
given the multiple conspiracies instruction in the first place, no

13

prejudice arose from the charge’s omission, dooming the
brothers’ instructional claim.
III.
For the foregoing reasons, we affirm Eliu and Waldemar’s
convictions.
So ordered.

APPENDIX B

Case l:03-cr-00331-CKK Document 618 Filed 08/24/15 Page 1 of 8

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

UNITED STATES,
v.

Criminal Action No. 03-331-13 (CKK)

ELIU LORENZANA-CORDON,
Defendant.

MEMORANDUM OPINION
(August 24, 2015)
This matter comes before the Court upon Defendant’s [598] Motion to Modify Conditions
of Pretrial Detention. Upon consideration of the Parties’ submissions,1 case law, and applicable
statutory authority, the Court shall DENY Defendant’s Motion for the reasons expressed below.

I.

BACKGROUND

On April 2, 2009, a federal grand jury returned an indictment charging Defendant Eliu
Elixander Lorenzana-Cordon with conspiracy to import over five kilograms of cocaine into the
United States in violation of 21 U.S.C. §§ 952, 959, 960, and 963. The indictment also carries a
criminal forfeiture allegation pursuant to 21 U.S.C. §§ 853 and 970. Defendant remained a fugitive
for approximately two-and-a-half years in Guatemala and was arrested on this indictment in
Guatemala on November 8, 2011. After fighting extradition for approximately three-and-a-half
years, Defendant was extradited to Washington, D.C. on April 30,2015 . Defendant made an initial
appearance before Magistrate Judge Alan Kay on May 1, 2015. At the initial appearance, the
Government moved to commit Defendant to the custody of the U.S. Attorney General. Defendant

i

Defendant’s Motion to Modify Conditions of Pretrial Detention (“Def.’s Mot.”), ECF No.
[598]; Government’s Opposition to Defendant’s Motion to Modify Conditions of Pretrial Release
(“Gov’t. Opp’n”), ECF No. [602]; Defendant’s Reply to Government’s Opposition to Defendant’s
Motion to Modify Conditions of Pretrial Detention (“Def.’s Reply”), ECF No. [607].
AUTHENTICATED f
U.S. GOVERNMENT
INFORMATION ^ J

CP OyPf

Case l:03-cr-00331-CKK Document 618 Filed 08/24/15 Page 2 of 8

did not contest pretrial detention at the time and waived his right to a detention hearing.
Accordingly, Magistrate Judge Kay ordered Defendant detained. Following the initial appearance,
Defendant was paroled into the United States for the purposes of this case and an immigration
detainer was placed on Defendant. Defendant has been detained pending trial at the Central
Detention Facility of the District of Columbia Department of Corrections.
Defendant filed the present Motion to Modify Conditions of Pretrial Detention on July 7,
2015, requesting less restrictive supervision. Specifically, Defendant requests that he be permitted
to be restricted to a local extended stay hotel under the following conditions: (1) electronic
monitoring, (2) surrender of passport, (3) reporting to pretrial services, and (4) participation in the
high intensity supervision program. Def.’s Mot., at 1. Although Defense Counsel characterizes
Defendant’s request as a request for “detention outside of a D.C. jail-cell,” Def.’s Reply, at 1,
Defendant is in fact asking to be released under certain conditions. Accordingly, the Court will
review Defendant’s Motion as a request for release. As the Government filed its Opposition on
July 10,2015, moving for a permanent order of detention, and Defendant filed a Reply on July 17,
2015, Defendant’s Motion is now ripe for the Court’s review.
II.

LEGAL STANDARD

A person ordered detained by a magistrate judge may seek review of the detention order in
this Court. 18U.S.C. § 3145. The Court reviews the detention issue de novo. 18U.S.C. § 3142(e).
Pursuant to Section 3142(e)(3)(A) of Title 18 of the United States Code, if there is probable cause
to believe the defendant committed an offense under the Controlled Substances Act for which the
maximum term of imprisonment is ten years or more, the Court presumes—subject to rebuttal by
defendant—that “no condition or combination of conditions will reasonably assure the appearance
of the person as required and the safety of the community.” To determine whether a defendant has
overcome this presumption, the Court takes the following factors into consideration
2

Case l:03-cr-00331-CKK Document 618 Filed 08/24/15 Page 3 of 8

(1) the nature and circumstances of the offense charged, including whether
the offense is a crime of violence or involves a controlled substance;
(2) the weight of the evidence against the person;
(3) the history and characteristics of the person; and
(4) the nature and seriousness of the danger to any person or the community
that would be posed by the person’s release.
See 18 U.S.C. § 3142(g).
III.

DISCUSSION

A. Nature and circumstances of the offense charged
Defendant has been charged with a conspiracy to distribute five kilograms or more of
cocaine for importation into the United States, subjecting him to a mandatory minimum sentence
of 10 years and a maximum sentence of life imprisonment. Accordingly, the Court presumes that
no condition or combination of conditions will reasonably assure Defendant’s appearance as
required and the safety of any person and the community. 18 U.S.C. § 3142(e)(3)(A).
More specifically, from approximately March 1996 to at least November 2007, Defendant
is alleged to have been an organizer and leader in an international scheme of cocaine trafficking
from Colombia to El Salvador, Guatemala, Mexico, and, ultimately, into the United States with an
estimated retail value of more than a billion dollars. Gov’t Opp’n, at 3. The Government proffers
that once the cocaine reached Guatemala it was “received, inventoried, stored and further
distributed for importation into the United States on properties owned and utilized by the
[trafficking organization], including the Defendant.” Id. The trafficking organization would also
utilize “cocaine-laden aircraft which would land on clandestine airstrips located on or near
properties owned and utilized by the [trafficking organization], including the Defendant, to receive
inventory, store, and further distribute the cocaine for importation into the United States.” Id. The
Government further proffers that Defendant
3

Case l:03-cr-00331-CKK Document 618 Filed 08/24/15 Page 4 of 8

would personally negotiate, receive loads of cocaine on behalf of the [trafficking
organization] on properties owned and utilized by the Defendant, as well as sell
these loads of cocaine to other drug traffickers. Further, the Defendant would use
warehouses on his property to store and inventory the cocaine for further
importation into the United States. The Defendant had multiple responsibilities
over the course of the conspiracy, including . . . coordinating, overseeing, and
supervising other members of the [trafficking organization] to ensure the safe
transportation of shipments of cocaine to Mexican drug traffickers in Guatemala
knowing or intending that it would be further distributed to the United States.
Id. In addition, the Government anticipates introducing evidence at trial that Defendant and other
members of the conspiracy carried weapons during their operations. Id. at 4.
Narcotics trafficking is a serious charge and carries with it serious penalties. Defendant
faces a mandatory minimum sentence of ten years if convicted and, given his alleged leadership
role and the large quantity of narcotics trafficked, he faces an estimated Advisory Guidelines range
of life imprisonment. Id. at 8 (citing USSG § 2dl.l). Defendant has not pointed to any evidence
to rebut this characterization of the nature and circumstances of the offense charged. Such severe
penalties provide Defendant a substantial incentive to flee the United States. See United States v.
Hong Vo, 978 F. Supp. 2d 41,43 (D.D.C. 2013) (holding that the serious nature and circumstances
of the offenses charged against defendant and the punishments provided for those offenses strongly
favor detention because of the significant incentive to flee the United States). Accordingly, the
Court finds that this factor favors detention.
B. Weight of the evidence against the Defendant
Where the weight of evidence of guilt is strong, it provides a defendant additional incentive
to flee. See United States v. Medina Coronado, 588 F. Supp. 2d 3, 4-5 (D.D.C. 2008) (finding
detention warranted where government’s evidence was strong against the defendant); see also
United States v. Vergara, 612 F.Supp.2d 36, 37-38 (D.D.C. 2009). Defendant contends that the
Government’s evidence against Defendant is not strong because it is stale, does not link Defendant
to past seizures of narcotics, does not establish Defendant’s specific intent to distribute cocaine to
4

Case l:03-cr-00331-CKK Document 618 Filed 08/24/15 Page 5 of 8

the United States, and “relies heavily on cooperating witnesses seeking sentence reductions.”
Def.’s Reply, at 2. The Court finds, to the contrary, that the Government’s evidentiary proffer for
the purposes of this motion establishes that the weight of the evidence against Defendant favors
detention. The evidence the Government will introduce at trial is not “over 15 years old,” as
Defendant contends, Def.’s Mot., at 5, but “goes up to and includes 2009,” Gov’t Opp’n, at 9. In
addition, the Government intends to introduce “numerous co-conspirators who will testify about
multiple drug transactions that they conducted with the Defendant personally.” Id. Testimony
from these co-conspirators will not be the only evidence introduced by the Government, as the
Government will also introduce evidence from “Guatemalan judicially authorized wiretap[s], and
the seizure of various drug ledgers, among other evidence.” Id. To the extent that the Government
has not, at this stage, proffered specific evidence as to certain elements of the offense, the Court
notes that the indictment alone provides probable cause to believe that Defendant committed the
charged offense. See United States v. Smith, 79 F.3d 1208,1210 (D.C. Cir. 1996) (acknowledging
the government’s reliance on an indictment to demonstrate probable cause and holding that “the
indictment alone would have been enough to raise the rebuttable presumption that no condition
would reasonably assure the safety of the community”). Moreover, absent any contradictory
evidence from the defendant, the D.C. Circuit has approved the government’s use of an evidentiary
proffer in support of a Defendant’s detention. See id. Accordingly, the Court finds that the second
factor also weighs in favor of detention.
C. History and characteristics of the Defendant
With regard to the third factor, federal courts have long recognized that “flight to avoid
prosecution is particularly high among persons charged with major drug offenses,” because “drug
traffickers often have established substantial ties outside the United States ... [and] have both the
resources and foreign contacts to escape to other countries.” United States v. Alatishe, 768 F.2d
5

Case l:03-cr-00331-CKK Document 618 Filed 08/24/15 Page 6 of 8

364, 370 n.13 (D.C. Cir. 1985) (citing S. Rep. No. 98-225 at 20 (1983), reprinted in 1984
U.S.C.C.A.N. 3203)). Here, Defendant is a Guatemalan citizen who has no immigration status in
the United States and no known contacts in the United States other than possibly those involved
in the drug trafficking conspiracy. Gov’t Opp’n, at 10. By contrast, Defendant has extensive
contacts in Guatemala and access to substantial amounts of money due to his leadership role in the
billion-dollar drug trafficking conspiracy. Moreover, Defendant previously was a fugitive for twoand-a-half years and the Government proffers that witnesses will testify that Defendant’s father
previously paid officials to secure Defendant’s release from custody. Id. at 2-3, 4. Although
Defendant’s father is now detained in the United States, some of Defendant’s close family
members remain fugitives in this case. Id. at 3. In short, Defendant has the motive and means to
flee the United States.
Defendant notes that Defendant’s family business is dedicated to agriculture and cattle and
“is a proud tradition that sustained hundreds of families that worked for, or based their businesses
on the success of the Lorenzana family.” Def.’s Reply, at 4. Defendant also notes that he is “a
respected member of his community and does not present himself to this Court with any allegations
of substance abuse” and “no allegations of previous criminal convictions.” Id. Even accepting
Defendant’s assertions as true, the Court does not find that they change the Court’s analysis and
finding that Defendant’s financial resources and ties to Guatemala increase Defendant’s risk of
flight. Accordingly, the Court finds that this factor weighs in favor of detention. See Hong Vo,
978 F. Supp. 2d at 46 (finding detention warranted where defendant had access to substantial assets
overseas and connections to Vietnam, demonstrating her ability to flee the United States).
D. Nature and seriousness of the danger to any person or the community
Finally, federal courts have long recognized that narcotics trafficking and distribution pose
a serious danger to the community. See, e.g., United States v. McDonald, 238 F.Supp.2d 182,186
6

Case l:03-cr-00331-CKK Document 618 Filed 08/24/15 Page 7 of 8

(D.D.C. 2002) (“the risk that a defendant will continue to engage in drug trafficking constitutes a
danger to the ‘safety of any other person or the community’” (quoting S. Rep. No. 98-225)). Courts
have also recognized that drug traffickers are likely to continue engaging in drug-related activities
if released. See id. In addition to the danger posed by Defendant given the nature of his crime,
the Government also notes that Defendant was arrested with weapons and has been known to bribe
Guatemalan officials. Gov’t Opp’n, at 12. The Government further proffers that witnesses will
testify “that they are fearful for their own and their family’s safety.”2 Id. at 3. Accordingly, the
Court finds this factor weighs in favor of Defendant’s detention.
Defendant contends that the release conditions he proposes “would ensure his continued
appearance for all court matters,” Def.’s Mot., at 4, and cites to two cases where the defendants
overcame the statutory presumption in favor of detention at issue here and were released on the
condition, among others, that they would be subject to electronic monitoring, id. (citing United
States v. Hudspeth, 143 F.Supp.2d 32 (D.D.C. 2001) and United States v. Kami, 298 F.Supp.2d
129 (D.D.C. 2004)). The Court finds the two cases cited by Defendant are by no means persuasive.
Unlike the present case, the defendant in Hudspeth had substantial personal and familial ties to the
District of Columbia and the evidence proffered against him was weak. Hudspeth, 143 F.Supp.2d
at 37. In Kami, although the defendant, like Defendant here, did not have any ties to the District,
the defendant was not charged with a crime of violence and was in no way linked with any violent

2 The Government also notes that “Defendant’s family have approached the family
members of a cooperating witness in Guatemala and threatened the cooperating witnesses’ [szc]
family.” Gov’t Opp’n, at 12. Defendant contends that unless the government can proffer specific
evidence and “identify] a witness who was allegedly threatened,” the Government cannot rely on
this information. Def.’s Reply, at 3. At this time, the Court will not request additional evidentiary
proffers of the Government because the Court finds the Government has presented sufficient
grounds for denying Defendant’s request to modify the conditions of pretrial release. Should the
alleged threats to witnesses became an important issue, the Court will request that additional
information about the witness threats be provided to the Court under seal.
7

Case l:03-cr-00331-CKK Document 618 Filed 08/24/15 Page 8 of 8
crimes or weapons use. Kami, 289 F.Supp.2d at 132. Here, Defendant has been charged with a
dangerous crime, was arrested with weapons on hand, has strong evidence inculpating him, and
does not have any ties to the United States. Although electronic monitoring is a method for
monitoring a defendant’s whereabouts, it does not prevent a defendant from absconding.
Therefore, Defendant’s proposed conditions do not obviate the risk that Defendant might flee, nor
the danger Defendant presents to the community.
IV.

CONCLUSION

For the foregoing reasons, the Court finds that Defendant Eliu Elixander LorenzanaCordon has failed to rebut the presumption that no condition or set of conditions can reasonably
assure Defendant’s presence at trial and the safety of the community. Accordingly, the Court
DENIES Defendant’s [598] Motion to Modify Condition of Pretrial Detention.3 An appropriate
Order accompanies this Memorandum Opinion.
SO ORDERED.
/s/
COLLEEN KOLLAR-KOTELLY
UNITED STATES DISTRICT JUDGE

3 Although not a factor in the Court’s decision to deny Defendant’s release, the Court also
notes that Defendant is subject to an immigration detainer and thus would be subject to
immigration detention if released.
8

USCA Case #18-3019

Filed: 08/31/2020

Document #1859108

zb

Page 1 of 1

(ttourt of ^Appeals

For The District of Columbia Circuit

September Term, 2019

No. 18-3019

1:03-cr-00331-CKK-13
1:03-cr-00331-CKK-14
Filed On: August 31, 2020
United States of America
Appellee
v.
Eliu Elixander Lorenzana-Cordon,
Appellant

Consolidated with 18-3033

BEFORE:

Srinivasan, Chief Judge, and Henderson, Rogers, Tatel, Garland
Griffith, Millett, Pillard, Wilkins, Katsas, and Rao, Circuit Judges
ORDER

Upon consideration of the petition of Eliu Lorenzana in No. 18-3019 for rehearing
en banc, and the absence of a request by any member of the court for a vote, it is
ORDERED that the petition be denied.

Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk
BY:

Isl
Michael C. McGrail
Deputy Clerk

Additional material
from this filing is
available in the
Clerk's Office.

